      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 24, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid Payments for Services Provided Under New York’s
               Section 1915(c) Traumatic Brain Injury Waiver at Venture Forthe, Inc., From
               January 1, 2005, Through December 31, 2007 (A-02-09-01005)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
services provided under New York’s section 1915(c) traumatic brain injury waiver at Venture
Forthe, Inc. We will issue this report to the New York State Department of Health within
5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or James P. Edert, Regional
Inspector General for Audit Services, Region II, at (212) 264-4620 or through email at
James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01005.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

May 25, 2011

Report Number: A-02-09-01005

Nirav R. Shah, M.D., M.P.H.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Shah:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Provided Under
New York’s Section 1915(c) Traumatic Brain Injury Waiver at Venture Forthe, Inc., From
January 1, 2005, Through December 31, 2007. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-09-01005 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Nirav R. Shah, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS FOR
    SERVICES PROVIDED UNDER
   NEW YORK’S SECTION 1915(C)
TRAUMATIC BRAIN INJURY WAIVER AT
     VENTURE FORTHE, INC.,
 FROM JANUARY 1, 2005, THROUGH
       DECEMBER 31, 2007



                       Daniel R. Levinson
                        Inspector General

                           May 2011
                         A-02-09-01005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

The New York State Department of Health (the State agency) administers the State’s Medicaid
program and provides oversight for compliance with Federal requirements. The State’s
traumatic brain injury (TBI) waiver program allows the State agency to claim Medicaid
reimbursement for HCBS provided to individuals with TBIs who would otherwise require
institutionalization in a nursing home.

The State agency’s Office of Long-Term Care administers the TBI waiver program through 10
contracted regional resource development centers (not-for-profit organizations) that serve
specific counties throughout the State. Under the TBI waiver program, each beneficiary is
required to have an individualized plan of care that, every 6 months, is reviewed by a regional
resource development specialist. As part of the plan-of-care review, the regional resource
development specialist must ensure that the beneficiary is assessed to need a nursing home level
of care by a State agency-certified assessor. The regional resource development specialist must
maintain documentation of each plan of care and assessment for at least 3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $131 million for services provided by 212 providers under the TBI waiver program.
During this period, Venture Forthe, Inc. (Venture), a TBI service provider, received Medicaid
reimbursement for 3,125 beneficiary-months totaling $13.8 million ($6.9 million Federal share).
A beneficiary-month includes all HCBS for a beneficiary for 1 month. Venture provided TBI
waiver program services in areas covered by regional resource development centers in
Binghamton, Buffalo, and Rochester, New York. (We refer collectively to these organizations as
“the centers.”)

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for TBI waiver program services provided by Venture complied with certain Federal and State
requirements.




                                                i
SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some TBI waiver program
services provided by Venture that did not comply with certain Federal and State requirements.
Of the 100 beneficiary-months in our random sample, the State agency properly claimed
Medicaid reimbursement for all TBI waiver program services during 7 beneficiary-months. The
State agency claimed Medicaid reimbursement for services that were not allowable or were
potentially unallowable for the 93 remaining beneficiary-months. Specifically, services totaling
$133,698 (Federal share) in 82 beneficiary-months did not comply with Federal and State
requirements, and services totaling $30,038 (Federal share) in 16 beneficiary-months may not
have complied with Federal and State requirements. Of these 16 beneficiary-months, 5 also
contained services that were unallowable. Of the 82 beneficiary-months with services for which
the State agency improperly claimed Federal Medicaid reimbursement, 42 contained more than
1 deficiency.

Based on our sample results, we estimated that the State agency improperly claimed $3,156,501
in Federal Medicaid reimbursement for TBI waiver program services provided by Venture that
did not comply with Federal and State requirements during calendar years 2005 through 2007.
In addition, we estimated that the State agency claimed $352,968 in Federal Medicaid
reimbursement for services provided by Venture that may not have complied with Federal and
State requirements.

The claims for unallowable and potentially unallowable services were made because (1) the
centers did not ensure and document that all beneficiaries approved for services were assessed by
certified individuals and determined eligible for TBI waiver program services, (2) the State
agency did not ensure that the assessors and screeners properly evaluated beneficiaries for
placement in the TBI waiver program, and (3) Venture did not ensure that it documented services
billed and claimed reimbursement only for allowable services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $3,156,501 to the Federal Government;

   •   work with CMS to resolve the claims, totaling $352,968, for which Medicaid
       reimbursement may have been unallowable;

   •   require the centers to ensure and document that all beneficiaries approved for services
       have been assessed by certified individuals and are eligible for TBI waiver program
       services;

   •   provide adequate training to assessors on the Federal and State requirements for the TBI
       waiver program; and




                                                ii
   •   require Venture to ensure that it documents services billed and claims reimbursement
       only for allowable TBI waiver program services.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency disagreed with our first recommendation
(financial disallowance), indicated that it would work with CMS to resolve our second
recommendation, and stated that it already had procedures in place to cover our remaining
recommendations. The State agency also disagreed with many elements of our findings and
requested that we provide information that it needed to review some of the claims related to our
first recommendation. Specifically, the State agency indicated that our interpretation of what
constitutes nursing facility level of care determinations did not consider all relevant information.
In addition, the State agency stated that we misinterpreted TBI waiver program requirements for
services provided in accordance with an approved plan of care. The State agency’s comments
appear in their entirety as Appendix D.

After reviewing the State agency’s comments on our draft report, we maintain that our findings
and recommendations are valid. We provided the information that the State agency requested in
order to review some of the claims related to our first recommendation.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION.............................................................................................................. 1

          BACKGROUND ..................................................................................................... 1
              Medicaid Program ........................................................................................ 1
              Home and Community-Based Services Waivers ......................................... 1
              New York’s Traumatic Brain Injury Waiver Program ................................ 1
              Venture Forthe, Inc. ..................................................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................... 3
               Objective ...................................................................................................... 3
               Scope ............................................................................................................ 4
               Methodology ................................................................................................ 4

FINDINGS AND RECOMMENDATIONS .................................................................... 5

          UNALLOWABLE SERVICES IN THE HOME AND COMMUNITY-BASED
           SERVICES WAIVER PROGRAM ......................................................................6
               Services Provided to Beneficiaries Assessed Not To Qualify for
                Nursing Home Level of Care ....................................................................6
               Services Not Provided in Accordance With an
                Approved Plan of Care..............................................................................6
               Services Not Documented............................................................................7
               Services Not Provided..................................................................................7
               Assessments for Traumatic Brain Injury Waiver Program Conducted
                by Uncertified Individuals ........................................................................8
               Duplicate Claims for Services .....................................................................8
               Assessment for Traumatic Brain Injury Waiver Program
                Not Documented .......................................................................................8

          POTENTIALLY UNALLOWABLE SERVICES IN THE HOME AND
           COMMUNITY-BASED SERVICES WAIVER PROGRAM ............................. 9

          CAUSES OF UNALLOWABLE AND
           POTENTIALLY UNALLOWABLE CLAIMS .................................................. 9

          RECOMMENDATIONS ......................................................................................... 10

          STATE AGENCY COMMENTS ............................................................................ 10

          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................. 11




                                                                    iv
APPENDIXES

 A: SAMPLE DESIGN AND METHODOLOGY

 B: SAMPLE RESULTS AND ESTIMATES

 C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED BENEFICIARY-MONTH

 D: STATE AGENCY COMMENTS




                               v
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The New York State Department of Health (the State
agency) administers the State’s Medicaid program and provides oversight for compliance with
Federal requirements.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than in an
institutional setting.

Section 1915(c) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS waiver services may be provided only to recipients who have been determined would, in
the absence of such services, require the Medicaid covered level of care provided in a hospital,
nursing facility, or intermediate care facility for persons with mental retardation. Pursuant to
42 CFR § 441.301(b)(1)(i), HCBS must be furnished under a written plan of care subject to
approval by each State’s State agency. In addition, Federal regulations (42 CFR § 441.302(c))
require the State agency to provide for an initial evaluation of the recipient’s need for the level of
care that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.

Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. In addition, the plan of care must specify the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available for
HCBS waiver services furnished without a written plan of care.

New York’s Traumatic Brain Injury Waiver Program

New York State’s waiver program for those with traumatic brain injury (TBI), the Home and
Community Based Services Medicaid Waiver for Individuals with Traumatic Brain Injury (TBI
waiver program), is administered by the State agency. The State agency’s Office of Long-Term
Care administers the TBI waiver program through 10 contracted regional resource development



                                              1
centers, which serve specific counties throughout the State. The TBI waiver program allows the
State agency to claim Medicaid reimbursement on a fee-for-service basis for HCBS provided to
individuals with TBI who would otherwise require institutionalization in a nursing home. 1

Program Eligibility

Pursuant to the State’s waiver program agreement with CMS, to be eligible for the TBI waiver
program, a beneficiary must be a Medicaid recipient, have a diagnosis of TBI, be between the
ages of 18 and 64 on application to the waiver program, and be assessed to need a nursing home
level of care. According to the State’s waiver program agreement with CMS, the State agency
uses two forms, the Hospital and Community Patient Review Instrument (H/C-PRI) and the
Screen, to assess nursing home level of care. The H/C-PRI, which is to be completed by a
registered nurse, is a clinical tool used to assess a beneficiary’s condition. The Screen, which
may be completed by a social worker, discharge planner, or other professional with experience in
psychosocial assessments, is a referral tool used to assess the care and support available to the
beneficiary in the community setting.

The State agency contracts with a Quality Improvement Organization 2 to train and certify
individuals to complete the H/C-PRI and the Screen. On completion of the training program,
individuals receive an assessor number and a screener number verifying their ability to complete
each form. These individuals may be employed by TBI waiver program service providers or by
local social services districts.

Based on their responses to the H/C-PRI, beneficiaries are assigned to 1 of 16 Resource
Utilization Group II (RUG-II) groupings. Pursuant to Title 10, § 400.12, of the New York
Compilation of Codes, Rules, & Regulations (NYCRR), the 16 RUG-II groupings are used to
determine whether beneficiaries qualify for nursing home level of care. During our audit period,
beneficiaries assigned to 12 of the 16 RUG-II groupings met the State’s requirements for nursing
home level of care. 3 Patients assigned to the four remaining groupings (Clinically




1
  Services offered under the State’s TBI waiver program include service coordination, respite, environmental
modifications, independent living skills, structured day programs, substance abuse programs, intensive behavioral
programs, community integration counseling, home and community support services, assistive technology, and
transportation.

2
 According to section 1862(g) of the Act, Quality Improvement Organizations were established for “the purposes of
promoting the effective, efficient, and economical delivery of health care services, and of promoting the quality of
services….”
3
 Specifically, beneficiaries assigned to the RUG-II groupings Special Care A, Special Care B, Heavy Rehabilitation
A, Heavy Rehabilitation B, Clinically Complex B, Clinically Complex C, Clinically Complex D, Severe Behavioral
B, Severe Behavioral C, Reduced Physical Functioning C, Reduced Physical Functioning D, and Reduced Physical
Functioning E were considered qualified for nursing home level of care.



                                                    2
Complex A, Severe Behavioral A, Reduced Physical Functioning A, and Reduced Physical
Functioning B) were not considered qualified for nursing home level of care. 4

Program Requirements

Pursuant to the State’s waiver program agreement with CMS, each TBI waiver program
beneficiary is required to have an individualized plan of care that, every 6 months, is reviewed
and approved by a regional resource development specialist (an employee of the resource
development center). The regional resource development specialist is responsible for reviewing
application packets, including eligibility decisions and plans of care. These specialists approve
eligibility decisions at the regional level, with technical oversight provided by State agency
management staff. In addition, State agency management staff review a minimum of 5 percent
of decision approvals per year.

A TBI service coordinator, who may be an employee of the TBI waiver program service
provider, prepares the individualized plan of care for the beneficiary. The service coordinator
ensures that the beneficiary is assessed as required and that the regional resource development
specialist reviews the assessment before approving the plan of care. The regional resource
development specialist must maintain documentation of each plan of care and level of care
assessment for at least 3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $131 million for services provided by 212 providers under the TBI waiver program.

Venture Forthe, Inc.

Venture Forthe, Inc. (Venture), was the second largest provider of services under the State’s TBI
waiver program during calendar years 2005 through 2007. During this period, Venture received
Medicaid reimbursement totaling $13.8 million ($6.9 million Federal share). Venture provided
TBI waiver program services in areas covered by Southern Tier Independence Center; Headway
of Western New York, Inc.; and United St. Mary’s Campus, regional resource development
centers in Binghamton, Buffalo, and Rochester, New York. (We refer collectively to these
organizations as “the centers.”)

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for TBI waiver program services provided by Venture complied with certain Federal and State
requirements.



4
 In November 2009, after our audit period, the State added these four groupings to its list of RUG-II groupings that
qualify for nursing facility level of care (N.Y. Dept. of Health, Recently Adopted Regulations, PASRR Screen
Requirements (Nov. 4, 2009)).


                                                     3
Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
by Venture under the TBI waiver program during calendar years 2005 through 2007. During this
period, the State agency claimed $13.8 million ($6.9 million Federal share) for services provided
by Venture during 3,125 beneficiary-months. 5 We will be issuing a separate report
(A-02-09-01006) on TBI waiver service claims submitted by Belvedere of Albany, LLC, for the
period January 1, 2005, through December 31, 2007.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the services that Venture provided and claimed for reimbursement.

We did not assess the State agency’s overall internal control structure. Rather, we limited our
review of internal controls to those applicable to our objective, which did not require an
understanding of all internal controls over the TBI waiver program. We reviewed Venture’s and
the centers’ internal controls for documenting services billed and claiming reimbursement for
TBI waiver program services. We did not assess the appropriateness of HCBS payment rates.

We performed our fieldwork at Venture’s offices in Niagara Falls, New York, and at the centers
in Binghamton, Buffalo, and Rochester, New York.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
        guidance;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with State officials to discuss the State’s administration and monitoring of the TBI
        waiver program;

    •   interviewed Venture and the centers’ officials regarding their TBI waiver program
        policies and procedures;

    •   reconciled the TBI waiver program services that the State agency claimed for Federal
        reimbursement on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for
        the Medical Assistance Program, to the population of all payments for TBI services to
        providers statewide obtained from the State’s Medicaid Management Information System
        for the period January 1, 2005, through December 31, 2007;



5
 A beneficiary-month includes all HCBS for a beneficiary for 1 month. A beneficiary-month may include multiple
services.


                                                  4
   •   obtained from the State’s Medicaid Management Information System a sampling frame
       of 3,125 beneficiary-months with TBI waiver program services for which Venture
       claimed reimbursement totaling $13.8 million ($6.9 million Federal share) during the
       period January 1, 2005, through December 31, 2007;

   •   selected a simple random sample of 100 beneficiary-months from the sampling frame of
       3,125 beneficiary-months and, for each beneficiary-month:

       o determined whether the beneficiary was assessed by a certified individual to be
         eligible to participate in the TBI waiver program,

       o determined whether TBI waiver program services were provided in accordance with
         an approved plan of care,

       o determined whether the staff members who provided the services met qualification
         and training requirements,

       o determined whether documentation supported the TBI waiver program services
         billed, and

       o identified services that were not provided or documented in accordance with Federal
         and State requirements; and

   •   estimated the unallowable and potentially unallowable Federal Medicaid reimbursement
       paid in the total population of 3,125 beneficiary-months.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some TBI waiver program
services provided by Venture that did not comply with certain Federal and State requirements.
Of the 100 beneficiary-months in our random sample, the State agency properly claimed
Medicaid reimbursement for all TBI waiver program services during 7 beneficiary-months. The
State agency claimed Medicaid reimbursement for services that were not allowable or were
potentially unallowable for the 93 remaining beneficiary-months. Specifically, services totaling
$133,698 (Federal share) in 82 beneficiary-months did not comply with Federal and State
requirements, and services totaling $30,038 (Federal share) in 16 beneficiary-months may not
have complied with Federal and State requirements. Of these 16 beneficiary-months, 5 also


                                            5
contained services that were unallowable. Of the 82 beneficiary-months with services for which
the State agency improperly claimed Federal Medicaid reimbursement, 42 contained more than
1 deficiency. Appendix C contains a summary of deficiencies, if any, identified for each sampled
beneficiary-month.

Based on our sample results, we estimated that the State agency improperly claimed $3,156,501
in Federal Medicaid reimbursement for TBI waiver program services provided by Venture that
did not comply with Federal and State requirements during calendar years 2005 through 2007.
In addition, we estimated that the State agency claimed $352,968 in Federal Medicaid
reimbursement for services provided by Venture that may not have complied with Federal and
State requirements.

The claims for unallowable and potentially unallowable services were made because (1) the
centers did not ensure and document that all beneficiaries approved for services were assessed by
certified individuals and determined eligible for TBI waiver program services, (2) the State
agency did not ensure that the assessors and screeners properly evaluated beneficiaries for
placement in the TBI waiver program, and (3) Venture did not ensure that it documented services
billed and claimed reimbursement only for allowable services.

UNALLOWABLE SERVICES IN THE HOME AND COMMUNITY-BASED SERVICES
WAIVER PROGRAM

Services Provided to Beneficiaries Assessed Not To Qualify for
Nursing Home Level of Care

Pursuant to 42 CFR § 441.302(c), the State agency must provide for an initial evaluation of the
recipient’s need for the level of care that would be provided in an institution unless the individual
receives the HCBS. The regulation further requires periodic reevaluations, at least annually, of
each recipient receiving HCBS to determine whether the recipient continues to need the level of
care provided and would, but for the provision of waiver services, be institutionalized. Pursuant
to the State’s waiver agreement with CMS, to be eligible for the TBI waiver program, a
beneficiary must be assessed to need nursing home level of care. Pursuant to 10 NYCRR
§ 400.12, to meet the requirements for nursing home level of care, beneficiaries must be assessed
to be in 1 of 12 RUG-II groupings that qualify beneficiaries for skilled nursing facility level of
care.

For 70 beneficiary-months, the State agency claimed reimbursement for services provided to
beneficiaries who were assessed by certified individuals to be in one of the four RUG-II
groupings that did not qualify for nursing home level of care. For example, one beneficiary was
assessed at Reduced Physical Functioning A level of care, a RUG-II grouping that did not
qualify for nursing home level of care.

Services Not Provided in Accordance With an Approved Plan of Care

Pursuant to 42 CFR § 441.301(b)(1)(i), HCBS must be furnished under a written plan of care
subject to approval by the State agency. Pursuant to section 4442.6 of the CMS State Medicaid



                                             6
Manual, a plan of care must specify the services to be provided, their frequency, and the type of
provider. Pursuant to the State’s waiver agreement with CMS, all waiver services will be
furnished pursuant to a written plan of care, and Federal financial participation will not be
claimed for waiver services that are not included in the individual written plan of care.
For 27 beneficiary-months, the State agency claimed reimbursement for some services that were
not in accordance with an approved plan of care. Specifically, Venture provided services in
excess of the number of units allowed in the plan of care or provided services that were not in the
plan of care. For example, although the plan of care for one beneficiary allowed for 46 hours of
service for 1 week, Venture billed for 56 hours of service that week.

Services Not Documented

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. Pursuant to Office of Management and Budget (OMB) Circular A-87, Cost Principles for
State, Local, and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), costs must
be adequately documented to be allowable under Federal awards. Pursuant to section 2497.1 of
the CMS State Medicaid Manual, Federal financial participation is available only for allowable
actual expenditures made on behalf of eligible recipients for covered services rendered by
certified providers. Expenditures are allowable only to the extent that, when a claim is filed, the
provider has adequate supporting documentation in readily reviewable form to assure that all
applicable Federal requirements have been met.

For 16 beneficiary-months, the State agency claimed reimbursement for some services that were
not adequately documented. For these services, Venture did not maintain service notes to
support the services billed or did not fully document the services billed. For example, during one
beneficiary-month, Venture billed for services for which there was no documentation of the
services performed.

Services Not Provided

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. Pursuant to section 2497.1 of the CMS State Medicaid Manual, Federal financial
participation is available only for allowable actual expenditures made on behalf of eligible
recipients for covered services rendered by certified providers.

For four beneficiary-months, the State agency claimed Federal reimbursement for some services
that were not provided. Venture’s records indicated that the services were canceled by the
beneficiary before the service date or were not provided because the beneficiary refused the
service.




                                             7
Assessments for Traumatic Brain Injury Waiver Program
Conducted by Uncertified Individuals

Pursuant to section 4442.5 of the CMS State Medicaid Manual, waiver agreements shall include
an assurance by the State agency that it will provide for an evaluation and periodic reevaluations
of the need for the level of care provided in an institution but for the availability of HCBS
services, including a description of the party or parties responsible for the evaluation and
reevaluation and their qualifications. Pursuant to the State’s waiver agreement with CMS, to be
eligible for the TBI waiver program, a beneficiary must be assessed to need nursing home level
of care by individuals who have completed the State agency’s H/C-PRI training and certification
program. 6

For three beneficiary-months, the State agency claimed reimbursement for some services
provided to beneficiaries whose assessments for TBI waiver program eligibility were conducted
by uncertified individuals. The centers did not detect the invalid assessments and, therefore,
approved TBI waiver program services for the beneficiaries.

Duplicate Claims for Services

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. Pursuant to OMB Circular A-87, Att. A, § C.1.j (2 CFR § 225, Appendix A(c)(1)(j)), costs
must be adequately documented to be allowable under Federal awards. Pursuant to section
2497.1 of the CMS State Medicaid Manual, Federal financial participation is available only for
allowable actual expenditures made on behalf of eligible recipients for covered services rendered
by certified providers. Expenditures are allowable only to the extent that, when a claim is filed,
the provider has adequate supporting documentation in readily reviewable form to assure that all
applicable Federal requirements have been met.

For three beneficiary-months, the State agency claimed reimbursement for some duplicate
services. For each of these claims, Venture billed and was paid twice for a single service. 7

Assessment for Traumatic Brain Injury Waiver Program Not Documented

Section 1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii) provide that HCBS waiver services
may be provided only to recipients who have been determined would, in the absence of such
services, require the Medicaid covered level of care provided in a hospital, nursing facility, or
intermediate care facility for persons with mental retardation. Pursuant to 42 CFR § 441.302(c),
the State agency must provide for an initial evaluation of the recipient’s need for the level of care
that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.

6
 The State agency assigns “assessor numbers,” which are required to complete the H/C-PRI, to registered nurses
who successfully complete the training and certification program.
7
    For each claim, Venture’s service notes supported only one service provided to one beneficiary on the same date.


                                                       8
Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. Pursuant to the State’s waiver agreement with CMS, the TBI service coordinator must
ensure that the beneficiary is assessed at least annually, and the regional resource development
specialist must review the assessment as a requirement for approving the plan of care.

For one beneficiary-month, the State agency claimed reimbursement for some services for which
neither Venture nor the associated center could provide documentation of the annual reevaluation
to determine whether TBI waiver program services were needed. Despite the missing annual
reevaluation, the center approved TBI waiver program services for the beneficiary.

POTENTIALLY UNALLOWABLE SERVICES IN THE
HOME AND COMMUNITY-BASED SERVICES WAIVER PROGRAM

Section 1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii) provide that HCBS waiver services
may be provided only to recipients who have been determined would, in the absence of such
services, require the Medicaid covered level of care provided in a hospital, nursing facility, or
intermediate care facility for persons with mental retardation. Pursuant to 42 CFR § 441.302(c),
the State agency must provide for an initial evaluation of the recipient’s need for the level of care
that would be provided in an institution unless the individual receives the HCBS. The
regulations further require at least annual reevaluations of each recipient receiving HCBS.
Pursuant to section 4442.6 of the CMS State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. Pursuant to the State’s waiver agreement with CMS, the TBI service coordinator must
ensure that the beneficiary is assessed at least annually, and the regional resource development
specialist must review the assessment as a requirement for approving the plan of care.

For 16 beneficiary-months, the State agency claimed reimbursement for some services that may
not have complied with Federal and State requirements. Specifically, the RUG-II groupings for
the beneficiaries were not documented on the H/C-PRIs provided by Venture and the centers. As
a result, the associated beneficiaries’ need for nursing home level of care could not be
determined.

CAUSES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE CLAIMS

The centers did not ensure and document that all beneficiaries approved for services were
assessed by certified individuals to be eligible for TBI waiver program services. Specifically, the
centers did not maintain the State agency’s H/C-PRI and related Screen for each beneficiary to
document the beneficiary’s need for the level of care that would be provided in an institution.
The centers also did not verify that each beneficiary’s need for nursing home level of care was
assessed by an individual who had completed the State agency’s H/C-PRI training and
certification program.

In addition, the State agency did not ensure that the assessors and screeners properly evaluated
beneficiaries for placement in the TBI waiver program. Specifically, beneficiaries who did not
require nursing home level of care and beneficiaries whose need for nursing home level of care



                                              9
had not been determined were recommended by assessors to participate in the TBI waiver
program. The centers also approved the ineligible and incomplete assessments as part of their
plan-of-care review.

Lastly, Venture did not ensure that it documented services billed and claimed reimbursement
only for allowable services. Specifically, for some services, Venture did not maintain required
service notes, including the name of the person providing the service; the nature, extent, or units
of service; and the place of service.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $3,156,501 to the Federal Government;

   •   work with CMS to resolve the claims, totaling $352,968, for which Medicaid
       reimbursement may have been unallowable;

   •   require the centers to ensure and document that all beneficiaries approved for services
       have been assessed by certified individuals and are eligible for TBI waiver program
       services;

   •   provide adequate training to assessors on the Federal and State requirements for the TBI
       waiver program; and

   •   require Venture to ensure that it documents services billed and claims reimbursement
       only for allowable TBI waiver program services.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our first recommendation
(financial disallowance), indicated that it would work with CMS to resolve our second
recommendation, and stated that it already had procedures in place to cover our remaining
recommendations. The State agency also disagreed with many elements of our findings and
requested that we provide information that it needed to review some of the claims related to our
first recommendation. Specifically, the State agency indicated that our interpretation of what
constitutes nursing facility level of care determinations did not consider all relevant information.
In addition, the State agency stated that we misinterpreted TBI waiver program requirements for
services provided in accordance with an approved plan of care.

The State agency stated that it was unaware of any Federal or State legislation, regulation, or
policy that disqualifies beneficiaries in four RUG-II groups (Clinically Complex A, Severe
Behavioral A, Reduced Physical Functioning A, and Reduced Physical Functioning B) from
being eligible for nursing facility level of care. The State agency indicated that the Omnibus
Budget Reconciliation Act of 1987 (OBRA ‘87) reclassified all residential health care facilities
(i.e., health-related and skilled nursing facilities) participating in the Medicaid program as


                                             10
“nursing facilities” governed by a single set of standards and regulations. The State agency also
stated that no RUG-II score would eliminate a beneficiary from nursing home placement.
According to the State agency, these scores are used only to determine rates and to establish a
rate mix to balance nursing facility populations.

In addition, the State agency indicated that the standards to guarantee the health and welfare of
waiver participants are designed to be flexible and responsive to the beneficiaries’ needs;
therefore, providers are obligated to respond to beneficiaries’ changing needs for care in the
community, including flexibility in the provision of authorized service hours.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments on our draft report, we maintain that our findings
and recommendations are valid. We provide a detailed response to the State agency’s comments
on our findings and first recommendation below. With respect to the last three
recommendations, our findings indicate that the procedures described by the State agency are not
adequate to ensure that it claimed reimbursement only for TBI waiver services that comply with
certain Federal and State requirements. We provided the information that the State agency
requested in order to review some of the claims related to our first recommendation.

We agree that OBRA ‘87 reclassified skilled nursing facilities, rehabilitation facilities, and
health-related facilities as nursing facilities. Nevertheless, New York law retained distinctions
between skilled nursing facilities (nursing homes) and health-related facilities. Section 2801 of
the New York Public Health Law defines a “nursing home” as a facility providing nursing care
in addition to lodging, board, and/or health-related services. This is in stark distinction from a
“facility providing health-related service” (also known as a “health-related facility”), which
section 2801 of the New York Public Health Law defines as a facility that provides lodging,
board, and physical care, including the recording of health information, dietary supervision, and
supervised hygienic services. Health-related facilities do not provide nursing care as do nursing
homes under New York law. 8

The State agency’s waiver program agreement with CMS states that the waiver program is for
individuals who, but for the provision of HCBS, would require “nursing facility” level of care.
The State’s TBI Waiver Program Manual, which provides further clarification of definitions and
scope of the HCBS/TBI waiver services, states that, to be eligible for the TBI waiver program, a
beneficiary must be assessed to need a “nursing home” level of care as determined by the
H/C-PRI and Screen. The H/C-PRI and Screen assign patients to 1 of 16 RUG-II categories.
Pursuant to 10 NYCRR § 400.12, patients in four RUG-II categories meet the requirements for
health-related facility level of care. Patients in the other 12 RUG-II categories meet the
requirements for skilled nursing facility level of care. Because health-related facilities are not


8
 Title 10 § 700.2 of the NYCRR also distinguishes nursing homes, which provide nursing care to patients, from
health-related facilities, which do not.


                                                       11
the same as nursing homes under New York law, patients in the four RUG-II categories who
require only health-related facility level of care do not need nursing home level of care. 9

We agree that the standards allow for flexibility in response to beneficiaries’ changing needs. In
fact, the approved CMS waiver agreement grants the State agency flexibility in terms of how it
delivers services to TBI recipients. However, the waiver agreement states that the types of
services, duration, and any addendums to such shall be noted in the plans of care. In reviewing
the plans of care, we took into consideration any addendums or notices of decision included in
the beneficiary case file. We did not consider any additional services provided to the beneficiary
unallowable if the services were included in an addendum or notice of decision.




9
  After we met with representatives of the State to discuss our findings, the State amended 10 NYCRR § 400.12,
effective November 4, 2009, so that patients in the Clinically Complex A, Severe Behavioral A, Reduced Physical
Functioning A, and Reduced Physical Functioning B RUG-II categories meet the requirements for skilled nursing
facility level of care.

                                                       12
APPENDIXES
                                                                                   Page 1 of 2

               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service for which Venture Forthe, Inc.
(Venture), received Medicaid reimbursement under New York’s traumatic brain injury (TBI)
waiver program during calendar years 2005 through 2007.

SAMPLING FRAME

The sampling frame was an Access file containing 3,125 beneficiary-months of service totaling
$13,807,346 ($6,903,648 Federal share). The data for beneficiary-months of service under the
New York TBI waiver program were extracted from the New York State Medicaid Management
Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2005 through 2007 for which
Venture claimed Medicaid reimbursement for services under the TBI waiver program. A
beneficiary-month is defined as all home and community-based services for one beneficiary for
1 month.

SAMPLE DESIGN

We used a simple random sample to review Medicaid payments made to Venture on behalf of
beneficiaries enrolled in the New York TBI waiver program.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months of service.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services statistical software,
RAT-STATS 2007. We used the random number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the beneficiary-months of service in our sampling frame. After
generating 100 random numbers, we selected the corresponding frame items for our sample. We
then created a list of 100 sampled items.
                                                                                     Page 2 of 2

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable and potentially
unallowable services in the beneficiary-months.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

UNALLOWABLE SERVICES IN THE HOME AND COMMUNITY-BASED SERVICES
WAIVER PROGRAM

                                 Sample Details and Results

                                                             No. of        Value of
               Value of                       Value of     Beneficiary-   Unallowable
Beneficiary-    Frame                          Sample      Months With     Services
 Months in     (Federal       Sample          (Federal     Unallowable     (Federal
  Frame         Share)         Size            Share)       Services        Share)
   3,125       $6,903,648       100           $187,579          82            $133,698

                         Estimated Value of Unallowable Services
                  (Limits Calculated for a 90-Percent Confidence Interval)

                             Point estimate              $4,178,069
                              Lower limit                 3,156,501
                              Upper limit                 5,199,637


POTENTIALLY UNALLOWABLE SERVICES IN THE HOME AND
COMMUNITY-BASED SERVICES WAIVER PROGRAM

                                 Sample Details and Results

                                                                  No. of          Value of
                                                               Beneficiary-      Potentially
                 Value of                       Value of       Months With      Unallowable
Beneficiary-      Frame                          Sample         Potentially       Services
 Months in       (Federal       Sample          (Federal       Unallowable        (Federal
  Frame           Share)         Size            Share)          Services          Share)
   3,125        $6,903,648        100           $187,579            16             $30,038

                    Estimate Value of Potentially Unallowable Services
                  (Limits Calculated for a 90-Percent Confidence Interval)

                             Point estimate               $938,692
                              Lower limit                  352,968
                              Upper limit                1,524,416
                                                                                                   Page 1 of 3


                 APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                                   BENEFICIARY-MONTH

                                                    Deficiencies
         1   Services provided to beneficiaries assessed not to qualify for nursing home level of care
         2   Services not provided in accordance with an approved plan of care
         3   Services not documented
         4   Services not provided
         5   Assessments for TBI waiver program conducted by uncertified individuals
         6   Duplicate claims for services
         7   Assessment for TBI waiver program not documented

         Office of Inspector General Review Determinations for Sampled Beneficiary-Months

  Sample
Beneficiary-    Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
  Month             1            2            3            4            5            6            7        Deficiencies
     1              X                                                                                            1
     2              X                                                                                            1
     3              X                                                                                            1
     4              X                                                                                            1
     5              X                                                                                            1
     6                           X                                                                               1
     7              X                                                                                            1
     8              X            X                                                                               2
     9              X            X                                                                               2
    10              X                                                                                            1
    11                           X                                                                               1
    12                                                                                                           0
    13              X                                                                                            1
    14              X                                                                                            1
    15              X                                                                                            1
    16                                                                                            X              1
    17                           X                                                                               1
    18              X                         X                                                                  2
    19              X            X                                                                               2
    20                           X                                                                               1
    21              X                                                                X                           2
    22              X                                                                                            1
    23                                                                                                           0
    24                                                                                                           0
    25              X                                                                                            1
    26              X                                                                                            1
                                                                                                  Page 2 of 3

  Sample
Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
  Month            1            2            3            4            5            6            7        Deficiencies
    27             X                                                                                            1
    28                                                                                                          0
    29             X                                                                                            1
    30             X                                                                                            1
    31             X                         X                                                                  2
    32             X                                                                                            1
    33             X                                                                                            1
    34             X            X            X                                                                  3
    35                                                                                                          0
    36             X                                                                                            1
    37             X                                                                                            1
    38                                                                                                          0
    39             X                                      X                                                     2
    40                                                                                                          0
    41                          X            X            X                                                     3
    42             X                                                                                            1
    43             X                                                                                            1
    44             X                                                                                            1
    45             X                                                                                            1
    46             X                                                                                            1
    47                                       X                                                                  1
    48             X            X                                                                               2
    49             X                                      X                                                     2
    50                                                                                                          0
    51             X                                                                                            1
    52             X                                                                                            1
    53             X            X            X                                                                  3
    54             X                                                                                            1
    55             X                                                                                            1
    56             X                                                                                            1
    57             X                         X                                                                  2
    58             X                                                                                            1
    59             X                         X                                                                  2
    60             X                                                                                            1
    61             X                                                                                            1
    62             X            X                                                                               2
    63             X            X                                                   X                           3
    64             X            X                                                                               2
    65             X                         X                                                                  2
                                                                                                  Page 3 of 3

  Sample
Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
  Month            1            2            3            4            5            6            7        Deficiencies
    66                          X            X                                                                  2
    67             X            X                                                                               2
    68             X                                                                                            1
    69                                                                                                          0
    70                                                                                                          0
    71                                                                                                          0
    72                                                                                                          0
    73             X                                                                                            1
    74                                                                                                          0
    75             X            X                                                                               2
    76             X                                                                                            1
    77             X                                                                                            1
    78             X                                                                                            1
    79             X                                                                                            1
    80             X            X                                                                               2
    81             X            X                                                                               2
    82             X                         X                                                                  2
    83             X            X                                                                               2
    84             X                                                                                            1
    85             X            X            X                                      X                           4
    86                                       X                                                                  1
    87             X            X                         X                                                     3
    88                                                                                                          0
    89                                                                                                          0
    90             X                                                                                            1
    91                          X                                                                               1
    92             X            X            X                         X                                        4
    93             X            X                                      X                                        3
    94                                                                                                          0
    95                          X                                                                               1
    96                                                                                                          0
    97             X            X            X                                                                  3
    98                                       X                         X                                        2
    99                                                                                                          0
   100             X                                                                                            1
Category
                  70           27           16            4            3            3            1           124
 Totals

82 Beneficiary-Months in Error
                                                                                                                        Page 1 of7


                   APPENDIX D: STATE AGENCY COMMENTS




                              STATE OF NEW YORK 

                              DEPARTMENT OF HEALTH 

                              Coming T"...., The Gool!morNelson A. Rockefeller Empire Slate PIa>:8 Albany, New York 12237


Ricl)ard f . Daines, M,D. 	                                                           James w. Clyne, Jr.
Commissioner 	                                                                        Executive Deputy Commissioner



                                                            October 13,20 10


     James P. Edt'T\ 

     Regional Inspector General for Audit Services 

     Dcp1lrt1l1cnt of Health amJ Human Services 

     Region II 

     Jacob Javitz Fcdcml Building 

     26 Federal Plaza
     New York, New York 10278

                                                            Ref. No. A,02-09-0100S 

     Ucar Mr. Eden: 


            El1clnscu arc the New York Stale Department of Health"s comments on the DepanrncllI
     of Health and Human Services, Office of IllSpcclor General's draft audi t report A-02-09-01005
     on "({eview of Medicaid Payments for Services Provided Under New York's Sl'Clion [9 J 5 (c)
     Traumatic Brailllnjury Waiver III Venture Forthe. Inc. From Jammry 1, 2005, Through
     Dt-.::ember31 , 2oo7."

             Thank you for the opponunity to conunen!.

                                                            Sitlcerely.




                                                            James W. Clyne, Jr. 

                                                            Executive Deputy Commissioner 

     Enclosure 


     cc: 	   Roben W. Rec:d 

             Donna Frescat()re 

             Jamc:s Sheehall 

             Mark L. Kissinger 

             Diane ChriSICnscn 

             Dennis Wendel! 

             Stephen Abbott 

             Stephen F. laCasse 

             Irene Myron 

             Ronald FatTeJl 

             Mary Elwell 

             Lynn Oliver 

                                                                                                      Page 2 of7




                 New York State Department of Health's 

                             Comments on the 

                Department of Health and Ii uman Services 

                       Office of Inspector Gencnll's 

                   Ouft Audit Report A-02-09-0100S on
      "Review of Medicaid Payments for Services Provided Under 

      Ne",,' York's Section 1915(c) Traumatic Brain Injury Waiver 

                      at Venture Forthe, Inc., From 

              January 1, 2005, Through December 31, 2007" 


The followi ng arc the New York State Department of Hea lth's (Department) comments in
rt;:sponse to the Department of Health and "Iuman Services, Ollice of Inspector General's (O IG)
draft audit report 1\-02-09-01005 011 "Review of Medicaid Paymcn~ for Services Provided
Under New York's St:clion 1915(c) Traumatic Brain !njury Waiver at Venture Forthc, Inc., From
January 1.2005, Through Occcmbcr 31, 2007."

Rrcommcndation #1:

The State agency should refund $3 , 156,50 110 the Federal government.

Res ponse # 1:

Thc I)cpartment does not agree that it should refund $3, 156,50 1 to the Federal govcmment, as its
TCview of the audit findings' documcntation and associated case records dClermined that OIG did
not accuratel y interpret what constitute~ nursing facility level of carc dctcnninations.

O IG's audit samplc consisted of 100 randomly selected beneficiary-months from amnngst the
3, 125 benefi ciary-months in the audit perind durin g which Tmumat ic Brain Injury (TBI) waiver
progmm services we re reimbursed. DIG's review found that the !)cpartment claimed
unallowable services in 82 orthe 100 benefi ciary-months in the audit sample (which Ihe
Department strongly disputes). OIG extrapolated thc $\33,698 reimbursed during the~e R2
beneficiary-months over the entire claims universe to conclude that the Departmcnt claimed
$3,156,501 in unallowable reimbursemcnt. OIG identified seven reasons for the non-compliance
in the 82 benefi ejary~months, which flTC listed below along with the DepMlment 's response to
each.

I. 	 Servke)' Pmvitled 10 Beneficiaries A)'sened Not to Qualify for Nurs;"g F(wifif)' Level of
   Care.

   OIG found that for 70 oftile bcnefi ciary-montlls in the audit sample. thc Department claimed
   reimbursement for scrvices provided to beneficiaries who wo;:re assessed by certified
   individuals to be in one of the four RUG-II groupings that did not quali fy for nursing facility
   levcl of care. OIG suppons this finding with its ~t.atemt:nl, "Pursuant !O T ille 10 ~ 400.12 of
   the New York Compilation or Codes, Rules, & Regulations (NYCCRR), to meclthe
   requirements for nursing f:lcilily Icvd ofcaTe, beneJicianes must be assessed to be in I of 12
   RUG -l I grou pings that qualify beneficiaries for skilled {emphasis added] nursi ng faci lity
                                                                                                        Page 3 of?




                                                2

 level of care." The four RUG·II groupings which OIG interprets as not qualifying for
 nu rsing faci lity level of care are addressed in Subpan 3 of ritlc 10 § 400. 12: " Patien ts in the
 following resource utilization groups [the lour RUG·II groups which O[G contends did not
 qualify for nursing facility level of care] meet the requirements for health·fated facilit),
 [emphasis added] lc\·el ofcare."

The Department is unaware of any federal or State legislation, regulation or policy that
disqualifies be neficiaries in these four RUG-II groups from nursingfacility le~'(!1 ofcare.

OIO's i.nterpretation of what constitutes nursing faci lity level of caf C determinations did no t
consider al l rel evant information, includ ing n federal O BRA ' 87 change implemented
su bsequent to promulgation nf lhe New York Slate Regulation citoo by 010. As a result, the
Departmeot contends that beneficil,lries assigned to each of the four RUG-II groupings which
OIG interpreted as not qualifying for the TBi waiver program did, in fact, meet waive r
eligibility requirements.

New YOfk State Local Commissioners Memorandum Transmittal ll 90-LCM- I 77 dated
October 30, 1990, infonned all local social services districts, " Effective October I, 1990, the
fedenal Health Care Financing Agency will reclassify al l residential health care faci lities (i.e.,
health related and skilled nursing facilities) participating in the Medicaid progmm as simpl y
' nursing facilities' (Nfs). governed by a single set of standards and regu lations ... " This ""'as
confinncd in a memorWldum dated JWluary 31, 199 1, advising that New York State has
implemen \ed a single level of certification for nursing homes in New York. and a sing le sct of
requirements applicable to all such faci lities. f urther, Depanment Memo randums 90-43 and
90-47 dated September 27, 1990 and October 17, 1990. respectively, infonned residential
health care facility (i.e., nursing home) operators of the elimination of the d istinction between
a skilled nursing fac ility and a health related facili ty. With this October 1990 change, the
RUG -II groupings relative to nursing facility level o f care incorporated those for ski lled
nursing facilities and health-related fac ilities. Support for this is found at 42 CFR 483.5(a)
which defioes " faci lity" to mean a "ski lled nursi ng faci lity or a nursing facility."

Addi tionall y, it is important for OIG to recognize that there is no RUG-II score that would
eliminate a beneficiary fro m nursing homc placement. Scores are utilized onl y for
deteryni'ni ng ~tcs and to establ ish a rate mix so that a fac ility has a balanced popUlation with
varying service/care needs; they have no impact on whether services are eligible for payment
unde r the ml waivcr program. This is co nlinned in the training documentation uti lized by
the State's Quality Improvement Organization contractor, Island Peer Review Organi zation
([PRO), which states that the 16 utilization groups are all defined diffe rcntly and arc utilized
as indicators o f patient needs.

Finally, OIG nOles that New York State has considerable flexibility in designing and
operating its Medicaid program, although it must comp l)' with Federal requ irements. The
Department agrees, (Uld .....h ile its Regulations do not spcdfically address nursing faci lity
le vel of care detenni nations for the TBI wai ver program, the Department strongl y maintains
that it has adhered to the overarching Federal legislation resulting from OBRA ' 87 which
combined skilled nursi ng facil ity and health related facilit), into a single level of care.
                                                                                                           Page 4 of7



                                                   3



2. Sen 'ices Nor Pro)'ided ill Ac.cordallce Wi,,, all ApprfH'e(i Pia" afCure

    0 10 found thai for 27 of the beneficiary-months in the aud it sample. services provided were
    in excess of the number of units allowed in the plan of care or were nor included in the plan
    of cure. OiG supports this finding with an example where the plan of care allowed lor 46
    units of independent living skills services, while the provider billed for 56 units.

    Department review of the C:l.SC$ associmcd with this find ing dctcnnincd Ihal OTG
    misin terpreted the TDI waiver progmm requirements. Consistent with the TB! waiver
    applica tion approved by eMS, standards to gUflranlcc the health and wel fare of waiver
    participants are designed to be nex ible and responsive 10 beneliciaries' needs.
    Concomitantly. providers are obligated to respond to benefi ciaries' changing ncctls (or care
    in the community. This includes fiexibility in the provision uf authorized service hours.

    TIle TIll Waivtr Program Manual uti lizi!d priur 10 2006 along willi va ri ous associated
    documentation provide for the modification of the billable units of service. The Manual
    states, "TIle HCBSn"AI waiver provides a souree offunding for fiex ible services. and will be
    administered in a spirit of cooperation and partnership. The providers of waiv.:r services are
    a villli pUrl of this t:fTort ...,. This re!lects a period when services were identified in the
    narrative of the service plan and ill a "projected schedule." In addition, the Notice of
    Decision identified servic!;:s as being " authori ...ed" or "reauthorized" for specific lime periods
    without requiring specification of the number of un its of services approved. Further, the
    Addi!ndu111 to an Existing Servi!.:e Plan also provided for modification of the billablc units of
    scl"!ce (and cost), as evidenced by it requesting the following infunnation: "Please describe
    all significant functional und/or psycho-wcial changes that have occurred Ihat are the basis
    for the addendum."

    Currentl y, the Department approves utilization of services based on tOial annual units for the
    purpo~t: of cost est irnate~ , according tu the proposed schedule and grid within the service
    plan. Mon thly, biweekly, and wcckly estimates :Jecommodale n.:xibility in service delivery.
    Service accommodations arc made in order to be responsive to the beneficiary's changing
    needs or other issues such as limited attention span, reduced stmnina and fatigue or to
    accommodate unexpected illness. Providers are expected to documcnt the reasons for each
    schcdulc :.ccommodation in their nOles. Under this approac h. units of services may be
    ilpproved that are not immediately utilized and/or units may be utilized sooner than planned,
    within the confincs of the tota l annual units approved. Howe ver, the total approved annual
    units are not allowed to increase without a lornml amendment to the service plan.

1. Sen·ice.\· Nol Docltlllellied

   010 found that tor 16 o f the beneficiary-mon ths in the aud it samp le, the provider did not
   maintai n sen'ici! notes to support the services billed or d id nOi lull y docu111cntthe services
   billed. The Department requests O IG to identify thc Transaction Control Number ("TCN"
   also known as Claim Reference Nwnht::r) for each claim associated with this finding, which
   the Dcparan ent requ ires to completc its review.
                                                                                                               Page 5 of7




                                                       4


      It is relevant to note that the Departm ent's monthly Medicaid Update
                                                                               provider publication for

     January 2005 reinforc ed the necessity for provider s to s!Jpport their
                                                                             claims with a reco rd of

     the services provided. Provider s were advised that docume ntation
                                                                            maintained should

     minimal ly include: benefici ary name, dlile-of·s ervicc. stan and cnd
                                                                             lime for each session, 

     description of the activities performed and the service plan goals worked
                                                                                  on and progrl;ss 

     towards attaining those goals.                 .


  4. Services Not Pro ~'ided

     OIG found that for 4 of the bene ficiary- months in the audit sample,
                                                                             reimbu rsement was
     claimed for services that were not provided because they were cancelle
                                                                                 d by the beneficiary
     before the service date or becau.<;e the beneficiary refused the service. The
                                                                                     Department
     requests OIG 10 identi fy the TeNs for the claims associated with this
                                                                               finding. which the
     Departm ent req uires \0 complete its review.

 5. Asses.trmmls /or TBI Wa;I'er Program COllducled by Uncertified
                                                                   ln di\'itfuafs
    O IG found that for 3 of the benefici ary-mon ths in the audit sample,
                                                                           reimb ursement was

    c laimed for services provided to beneficiaries whose assessm ents for
                                                                            TSI waiver program 

    eligibili ty were conduct ed by uncertified individuals. 


     Centers are required to docume nt, for each beneficiary appro\'oo for
                                                                                services, that a certified 

     individual performed the assessm ent by verifying that the assessor
                                                                             has signed the proper

     docume nts an d has furnished their assessm ent certification number.
                                                                                Certifica tion credentials 

     are issued by the State's Quality Impro\·ement Organization conlnlclO
                                                                                 r. currentl y IPRO. The

    assessm ent service agency is respons ible for verifying that its employe
                                                                                  d assessor s adhere to

    the required certification standards. Only licensed Registered Nurses
                                                                                may be certified to

    perform assessm ents which, lIS medica.l professionals, must perfonn
                                                                               the assessm ents in

    accordAnce with accepted !itandards of practice. Centers arc not, and
                                                                                should not be, ex]X-'C\cd

    to verify the validity of the assessm ent or the credentials of the asSCSSQr
                                                                                   , but arc expected to

    con finn the presence of the assessor 's signatur e and the assessm cn
                                                                            t certifica tion number. 

   The assessor s which D IG found to be uncertified may have been credent
                                                                                   ialed by a previous

    Quality Improve ment Organiz ation contract or and therefore do nol
                                                                               appear on the fil e of

   certified indi viduals maintained by IPRO, although the Departm ent
                                                                               could possibly verify

   certifi cation through State Educatio n Department records or other means.
                                                                                      DIG to requested

   to fumi sh identify ing infonnat ion on the specific assessors assoc iated
                                                                                 with this finding, and

   the Departm ent ....i ll follow-u p on the certifi cation status of each. 


6. Duplicute Claims/ or Service.f

   OIG found that for 3 o f the beneliciary-mon lhs in the audit s.1mple,
                                                                          rei mbursem ent was
   claimed for some duplicat e scl'\'ices. The Departm ent requests DIG
                                                                           to identifY the teNs for

   all claims associat ed with this finding, which the Department requires
                                                                             to complete its revicw. 

                                                                                                      Page 6 of 7



                                                 ,

7. Assessml!m for Traumatic Braill IlIjllry Wail'eT Program Not Dt}culI/f!IIret/

    GIG found th:lI for one beneficiary-month in the audit Sample. reimbursement Wl'IS claimed
    for services for which documentation of an annual reevaluation was missing. The
    DcpartlllCIII is following-up with the provider and will furnish OIG the missing
    docum('lllalion should il be located.

    II is relcvwlt to note that in 2009, Centers were trained on the importance of ensuring that
    services do nOI continue wi thout a timely and vulid nursing facility level of care
    rcdctcmlinmion. Furthermore, the Department recently implemented a new dlllllbasc lo r
    trucking compliance with mmual rcevalulllions. Cu.se ~co rd infoml1l1ioll is elcctronically
    collected by the Cenlers and the Department, with Ihc data providing II Sillicwidt perspective
    of benefi ciary demographics includi ng, bUI not limited 10, identified services. lcvcl of care
    and correlating service authorizations.

RcconllllCntbtion #2:

The Stllte agency should work with eMS 10 resolve the claims, totaling $352,968. for ,""hich
Medicaid re imburseme nt may have been unallowable.

Respo nse #2:

DIG fou nd thllt for 16 o f the beneficiary-months in the :'Iudit sample. the beneficiaries' RUG-II
groupings wcre 1I()t documented on the Hospital and Community Patitnt Revi ew Instrument and.
as a result. the 3ssocialL'd oc'11eliciaries' need for nursing facil ity level of care could not be
dctcrmintd. OIG extrnpolated Ihe $30.038 reimbursed during these 16 btntficiary-months ovcr
the entire claims universe to conclude mat the Department c luimed S352.968 in potentially
un:lllowable reimbursement. I I0we\"el', the Dcpanment is not :lware of nny standard, including
those app lied by OIG in this audit as identili.:d in Ihe repon. that specifically requirts the
presence of the RUG- II gro uping on the I'lospilnl and Community Palient Review Instrument.
While it is the Dcp.1nment's position that tht: absence of this information on the form does not
invalidate the assessment. it wi ll work with CMS to resolve Ihe recommendation.

H.ecummcn£i ll tion #3 :

The State agenc), should req uire the Centers to ensure and document that all benefi ciaries
approved for services have been assessed by certified individuals and arc e ligible for TDI waiver
program scrvic~s.

Rt-sponsc #13:

The Dcpanmcnt docs require the Centers to ensu~ and document that all bencficiuries approved
for services we re assessed by eenificd individuals by verifying thc presence orthe as.scssor's
signature and assessment cenification number. This is IUrlhcr discussed in section 5 or Response
#1 alxwt.
                                                                                                       Page 7 of7



                                                  6


Recommendation #4:

The State agency should provide adequate training to assessors on the Federal and Stale
requirements for the TO! waiver program.

Res(lonse #4:

The Department contends that it already provides for the adequate training of assessors through
its Quality Improvement Organization contractor. The currenl contractor, IPRO, has been
providing this service since 2004, predating tbe audit period.

In evaluating this DIG recommendatio n, the Department f<.'COgnizcd thai rather than assessor
training, the underlying issue may acrual[y relate to the coment of the assessment instrument
utilized to detennine level of care, and hence, TBI waiver program participation. Allhe time
thaI the assessment instrume nt was adopted as the 1001 by wh ich to establish nursi ng home level
of care, home and community-based services were in the early stages of development. The
Department will wo rk ....ith IPRO to evaluate whether updates are needed 10 the assessment
instrument and traini ng materials to ensure Ihey relleet the evolution of community-based long
tenn cure services and alternatives to institutional care.

Recommendation #5:

The Slate agency should requ ire the provider to ensure it documents services billed and claims
reimbursement only for allowable TBI waiver program services.

ReS(tonse #5:

The Depanment does require a ll providers to document services billed and ( 0 claim
reim bursement only for allowable TaTwaiver program services, as documented in the Billing
Manual and the Depanmcnt's Medicaid Update provider publication. The Depanment will
nonetheless reinforce the importance of this ....'lth the provider audited as well as all other TI3I
waiver program providers. The Department will additionally enhance its oversight and
monitoring of the audited provider and direct that it implement internal control improvements to
address the issues identified in this audit.
